WAIVER

Supreme Court of the United States

No. 19-459
Texas Brine Company, LLC v. Florida Gas Transmission Company,
LLC, et al.
(Petitioner) (Respondents)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
O Please enter my appearance as Counsel of Record for all respondents.

a There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

(See athached list)

 

f Iam a member of the Bar of the Supreme Court of the United States.

Q Lam not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by a Bar member.

ignature haw fat
; Late ber £ 1G.

Date: ZZ, oll

(Type or print) Name Gus A. Fritchie mt
Mr. OMs. O Mrs. O Miss

Firm, Irwin, Fritehie, Urguhact + Moore, LLC

Address 400 Poudras St. - Suite 2100

City & state New Orleans ,L4 Zip 10130
Phone 2 OY- 310-2100

 

 

SEND A COPY OF THIS FORM TO PETITIONER’S COUNSEL OR TO PETITIONER IF
PRO SE, PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

ce: James M. Garner
Poul! w. Hughos

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http:/www.supremecourtus.gov. Have the Supreme Court docket number available.
Please enter Gus A. Fritchie III as Counsel of Record for:

Certain London Market Insurance Companies, including Hansa Marine Insurance
Company (UK) Limited, Phoenix Assurance, PLC, Sirius International Insurance
Corporation (as successor to Sirius Insurance Company (UK) Ltd.), The Yorkshire
Insurance Company, Ltd., The Northern Assurance Company, Ltd., Terra Nova Insurance
Company, Ltd., Sphere Drake Insurance, PLC, Zurich Re (UK), Ltd., The Ocean Marine
Insurance Company, Ltd., and Cornhill Insurance, PLC
